     Department of Homeland Security





             CBP Acquisition of Aviation 

            Management Tracking System





OIG-12-104 (Revised)                         August 2012

August 31, 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Background

The Department of Homeland Security (DHS) has the world’s largest law enforcement
aviation organization. Both U.S. Customs and Border Protection (CBP) and the United
States Coast Guard (USCG) have fleets of rotary and fixed-winged aircraft to support
their missions. Since 2009, there have been numerous efforts to find efficiencies
between the two components’ fleets including efforts directed by the Secretary of the
Department of Homeland Security.

As a result, the Office of Inspector General (OIG) is performing an audit to determine
whether DHS and its components have developed efficiencies for the acquisition,
conversion, and maintenance of CBP and USCG H-60 helicopters. During our audit, it
came to OIG’s attention that the CBP Office of Air and Marine (OAM) plans to acquire a
new information technology (IT) aviation logistics and maintenance information system.
At a meeting with CBP OAM officials on May 9, 2012, they stated they would decide on
an IT system in the next 30 days.


Results of Review

Although there is a joint strategy to unify its aviation logistics and maintenance system
with those of the USCG, CBP plans to purchase a new, separate system that will not be
coordinated with the USCG’s already operational system. This acquisition does not
comply with the Secretary’s efforts to improve coordination and efficiencies among DHS
components and will reduce CBP’s estimated cost savings.

CBP IT Systems

CBP currently uses the Computerized Aircraft Reporting and Material Control (CARMAC)
system to record aircraft maintenance, determine operational status, control inventory,
and perform other functions. However, the CARMAC system was implemented in 1979,
is written in an outdated programming language, and is not user friendly, which makes it
excessively expensive to maintain. As a result, CBP has decided to move to a new
system to track and analyze this vital aviation logistics and maintenance data.

According to officials, CBP originally planned to purchase two separate IT systems to
replace CARMAC. One, NASA’s Aviation Maintenance Information System (NAMIS),
would support only CBP P-3 long range patrol aircraft programs. The other similar but
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   separate system, IBM’s Maximo Asset Management System (MAXIMO), would track
   information for all remaining CBP aviation platforms. CBP’s IT department denied
   OAM’s plan to acquire two separate systems. Currently, OAM is determining which of
   the two systems it will select to replace CARMAC.

   CBP OAM officials estimate it will cost more than $21 million to maintain CARMAC for
   the next 5 years. They estimate a new replacement system will cost approximately $7
   million to acquire and operate over the next 5 years. OAM officials also stated that CBP
   would not migrate the legacy CARMAC information into the new system to preserve the
   new system’s integrity because the CARMAC information is incomplete and
   cumbersome. CBP plans to keep CARMAC operational for an undetermined length of
   time to support any historical data requirements.

   USCG IT Systems

   Currently, the USCG owns and maintains the Asset Logistics Management Information
   System (ALMIS) for managing aircraft (and surface) logistics, maintenance, and
   operational information. ALMIS is accredited under National Institute of Standards and
   Technology (NIST) IT system security standards in NIST Special Publication 800-37 and
   supports comprehensive maintenance, operations, and logistics for more than 200
   USCG aircraft across the nation. ALMIS is already cleared and operational in the DHS IT
   infrastructure. The USCG is updating its IT systems to the Coast Guard Logistics
   Information Management System (CG-LIMS). All data from ALMIS will be migrated to
   CG-LIMS during this technology refresh. The USCG has been conducting a detailed
   acquisition of this software since 2006.

   Secretary’s Direction

   DHS’ FY 2013 budget submitted to Congress emphasizes the importance of
   consolidating and streamlining systems and operations as much as possible to ensure
   cost savings for the Department. In a March 21, 2012 hearing before the Senate
   Appropriations Committee, the Secretary of the Department of Homeland Security
   highlighted senior leadership’s efforts to analyze the roles and missions of DHS’ aviation
   assets to increase their effectiveness through increased coordination and collaboration.
   The Secretary specifically mentioned “increased cross-Component collaboration for
   aviation-related equipment and maintenance by establishing excess equipment sharing,
   maintenance services, and contract teaming agreements, as well as other opportunities
   for aviation related efficiencies.”


www.oig.dhs.gov                                2                                       OIG-12-104
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Joint CBP/USCG Strategy-Aviation Information Management Systems 


   In DHS’ Customs and Border Protection FY 2011-15 Resource Allocation Decision, DHS
   directed:

           CBP and USCG will provide to the PRB by January 29, 2010, a joint
           strategy to achieve compatible or unified information management
           systems, with the goal of interoperable systems (to include a common
           lexicon and capacity to automatically share information) by 2014.

   In response, CBP and the USCG drafted the Joint CBP/USCG Strategy - Aviation
   Information Management Systems (2010) (joint CBP/USCG strategy) outlining
   the numerous systems used by the two agencies to track aviation logistics,
   maintenance, and other information. The strategy concludes that integration of
   legacy systems is generally more difficult and expensive than migrating to a new
   generation data system. It further states that “a phased approach to achieving
   compatible or unified aviation management information systems between CBP
   and the USCG will likely achieve the best results.” More importantly, the
   strategy calls for first unifying the CARMAC and ALMIS logistic and maintenance
   systems because they have the most commonality and require the least effort
   and resources. Finally, the strategy details steps to plan and implement
   unification of CBP and the USCG’s information management systems.


   Conclusion

   Although there is a joint CBP/USCG strategy to unify the two components’
   aviation management information systems, OAM plans to acquire a new,
   separate IT system for its aircraft. This plan would continue past practices of
   obtaining disparate systems that cannot share information with other
   components, including the USCG. Instead, CBP should promptly terminate this
   planned acquisition and instruct OAM to transition its aviation logistics and
   maintenance tracking to the USCG’s ALMIS, in accordance with the Secretary’s
   efficiency initiatives and the joint CBP/USCG strategy. By transitioning to the
   USCG’s ALMIS, CBP will improve the effectiveness of aviation management
   information tracking for itself and DHS and save more than the OAM-estimated
   $7 million.




www.oig.dhs.gov                               3                                       OIG-12-104
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Recommendations
   We recommend that the Acting Commissioner of the U.S. Customs and Border
   Protection:

   Recommendation #1:

   Terminate any new acquisitions by the Office of Air and Marine of aviation
   logistics and maintenance information management IT systems; and

   Recommendation #2:

   Direct the Office of Air and Marine to coordinate with the United States Coast
   Guard to transition its aircraft reporting and material control processes and
   procedures to the United States Coast Guard’s Asset Logistics Management
   Information System.

   Management Comments and OIG Analysis
   CBP submitted formal comments to our report. A copy of the response is included as
   appendix B. The USCG also provided technical comments to CBP for the report, but CBP
   did not provide these to OIG. We obtained them through USCG representatives. Both
   the USCG’s technical comments and CBP’s management comments are summarized
   below and incorporated in the final report where appropriate. CBP did not concur with
   our two recommendations. Our analysis of CBP’s non-concurrence follows.

   USCG Technical Comments

   The USCG provided technical comments to CBP and subsequently forwarded those
   comments to the OIG for review and consideration. USCG’s technical comments
   focused on two elements—its work to upgrade its own systems and the difficulties in
   transitioning CBP to the USCG’s system. Upon receipt, OIG staff discussed the
   comments with USCG technical representatives for additional clarification.

   OIG is aware that the USCG is updating its IT systems to CG-LIMS. This technology
   refresh will include ALMIS, and all data from ALMIS will be migrated to CG-LIMS. The
   USCG has been conducting a detailed acquisition of this software beginning in 2006.
   USCG officials confirmed that the sooner CBP commits to transitioning to ALMIS, the
   more input CBP could have into the final CG-LIMS.


www.oig.dhs.gov                               4                                     OIG-12-104
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   The USCG is concerned about both ALMIS’ ability and the cost to communicate with CBP
   finance and human resources systems. OIG understands that CARMAC does not
   currently share information directly with either CBP’s finance system or its human
   resource systems. Managing CBP logistics and maintenance information in the USCG’s
   ALMIS would be similar to CBP CARMAC’s current processes, but would include the
   potential to integrate CBP finance and human resource systems with CG-LIMS in the
   future, if properly planned and implemented. The USCG questioned CBP’s current
   technological integration and cost estimates for procuring any new logistics and
   maintenance system, concluding that for CBP to acquire either of the two systems
   would cost much more than $7 million.

   CBP Management Comments

   Management Comments to Recommendation #1

   CBP did not concur: CBP stated that due to the size of its fleet, and the inefficient and
   ineffective CARMAC system currently used to track vital aviation logistics and
   maintenance data, OAM cannot wait indefinitely to transition to a new aviation
   information system when sufficient CBP resources are neither available nor likely to be
   available soon for implementation.

   OIG Analysis: CBP implied IT planning time and resources are scarce. We contend that,
   when there are existing systems available to meet CBP’s needs, quickly purchasing a
   new IT system outside of DHS is not the proper response. There is a high risk that the
   inadequately researched new system will not meet CBP’s IT needs. CBP should instead
   use the available time and resources to thoroughly analyze and determine the most
   effective way to use the already functional system within DHS that the USCG owns and
   operates. This will mean adjusting CBP’s business practices to align with the USCG’s;
   however, CBP’s transition to any new system will require this adjustment. Transitioning
   to the USCG’s ALMIS and CG-LIMS would follow the joint CBP/USCG strategy, as well as
   the Secretary’s goal for “one DHS.”

   Management Comments to Recommendation #2

   CBP did not concur: CBP stated that it would be irresponsible to agree to implement
   the recommendation to transition to ALMIS without a substantive assessment of
   commercial and/or other government-owned alternatives. CBP also stated that the
   USCG is currently migrating from ALMIS to an upgraded system. CBP believes that
   transitioning to the USCG’s system will cost more for itself and the USCG, especially
   during initial start-up, and that consolidating IT systems does not always lead to
   efficiencies that outweigh the costs. Finally, CBP stated that CBP’s and the USCG’s use


www.oig.dhs.gov                                5                                       OIG-12-104
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   of different general ledger and human resource systems would adversely affect the joint
   use of a common logistics IT system.

   OIG Analysis: Since 2004, studies and reports conducted by numerous internal and
   external organizations have pointed specifically to unifying CBP and USCG logistics and
   information management processes into one system. CBP has resisted efforts in the
   past and continues to not take the necessary first step to align similar systems and
   operations between DHS components.

   CBP also continues to argue that “merging” systems is cumbersome, costly, and difficult.
   However, regardless of which new system is used, CBP will need to adjust its data
   collection processes, and most of the existing corrupt CARMAC data will not be moved
   to any new system. This is an ideal time for CBP to transition to the USCG system using
   the existing data fields and processes already developed and implemented by the USCG.
   CBP is correct that the USCG will eventually migrate the data from ALMIS to CG-LIMS
   during the process of refreshing the IT systems. However, this technology refresh is an
   updating process that will not interfere with ongoing ALMIS operation. With CBP’s
   cooperation, the updated version could potentially be more suited to fit CBP and DHS’s
   needs. The USCG is not migrating away from ALMIS, but improving the system with CG-
   LIMS to include functions for connecting maintenance, supply, logistics, finance, and
   human resources systems and functionality.

   CBP believes that OIG did not consider commercial or other government-owned
   alternatives. OIG staff reviewed white papers provided by CBP on those systems and
   came to the conclusions in the report. The IT systems CBP is considering would be
   hosted outside of CBP and DHS, just as CARMAC has been in the past, which led to
   major data integrity and access problems. Furthermore, if CBP selects NASA’s NAMIS,
   CBP would be transitioning more than 270 aircraft into a system that currently only
   supports 104 NASA aircraft. CBP would have more than a 72 percent stake in a system
   over which it has no ownership or control. In addition, acquiring the commercial
   alternative MAXIMO would neither align with the joint CBP/USCG strategy, nor follow
   the Secretary’s direction to “increase cross-Component collaboration for aviation-
   related equipment and maintenance.”

   CBP did not disagree with OIG that the joint CBP/USCG strategy confirmed aligning
   these logistics and maintenance processes and systems is a first step. It has been more
   than 8 years since the Department formed and since ALMIS was identified as the system
   DHS components should use for aviation logistics and management tracking. However,
   CBP will further delay this alignment if it acquires yet another disparate IT system
   outside of DHS.



www.oig.dhs.gov                                6                                     OIG-12-104
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology

   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We conducted this review within the scope of our audit Developing Efficiencies for the
   Acquisition, Conversion, and Maintenance of CBP and USCG H-60 Helicopters (12-102-
   AUD-DHS). During audit fieldwork information pertaining to the acquisition of a new IT
   system was brought to our attention. We talked with CBP personnel regarding their
   plans for acquiring a new system for tracking aviation management information,
   reviewed the joint strategy drafted by CBP and the USCG on the feasibility of joining
   systems, and reviewed white papers on the potential replacement systems CBP was
   considering purchasing. We also reviewed Congressional testimony provided by the
   Secretary of the Department of Homeland Security on improving efficiencies in DHS.

   We conducted this performance audit between January and May 2012 pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards, except that we identified an impairment to our
   independence in appearance. Following completion of our audit, it came to our
   attention that a family member of a senior OIG official was employed by an entity
   associated with this audit. We took steps to re-evaluate the evidence supporting our
   findings and conclusions. In our opinion, the impairment to our independence in
   appearance did not affect the findings and conclusions developed during this audit.

   GAGAS requires that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based upon our
   audit objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based upon our audit objectives, and that the impairment
   to our independence in appearance did not affect this evidence or any findings and
   conclusions.




www.oig.dhs.gov                               7                                      OIG-12-104
                    OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report




www.oig.dhs.gov                   8                     OIG-12-104
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 9                     OIG-12-104
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 10                    OIG-12-104
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                 11                    OIG-12-104
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   Under Secretary for Management
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Commandant, United States Coast Guard
   Chief Procurement Officer, DHS
   Chief Information Officer, DHS
   Audit Liaison, CBP
   Audit Liaison, USCG

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   U.S. Senate Committee on Appropriations
   U.S. House of Representatives Committee on Appropriations
   U.S. Senate Homeland Security and Governmental Affairs Committee
   U.S. Senate Committee on Finance
   U.S. Senate Committee on the Judiciary
   U.S. House of Representatives Committee on Homeland Security
   U.S. House of Representatives Committee on Government Reform
   U.S. House of Representatives Committee on Transportation and Infrastructure




www.oig.dhs.gov                                  12                               OIG-12-104
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
